                        AUDIT REPORT



Advertising and
Consulting Supplier
Selection Process
  June 11, 2014




                  Report Number SM-AR-14-006
                                                                     HIGHLIGHTS

                                                                       June 11, 2014
                                                         Advertising and Consulting
                                                         Supplier Selection Process
                                                        Report Number SM-AR-14-006
BACKGROUND:
In a January 2013 report, the U.S.           established guidelines for the supplier
Postal Service Office of Inspector           selection process by documenting
General (OIG) found that the U.S.            narratives to support their consensus
Postal Service did not adequately            decisions, except for two consulting
monitor its two largest advertising          contract purchases. Specifically, the two
contracts. As a result, the Postal Service   evaluations did not include narratives to
planned to restructure the contracts to      explain the basis of the competing
take advantage of competition in the         supplier ratings.
advertising marketplace. In fiscal years
2012 and 2013, the Postal Service            If supplier evaluations are not fully
awarded about $252 million for               documented and maintained, the Postal
advertising and related consulting           Service cannot ensure the transparency
services.                                    and integrity of the supplier selection
                                             process and its contract awards may be
Supplier selection involves a team           vulnerable to challenges. As a result, we
evaluating suppliers’ proposals. Team        identified two contract purchases valued
members individually evaluate                at $3.5 million for which evaluations did
proposals and then meet to reach a           not contain narratives to support the
consensus. The team must document            consensus decisions. This does not
the rationale for its consensus              necessarily indicate that the Postal
decisions. Competing suppliers who           Service incurred losses.
disagree with the supplier selection can
challenge the contract award.                WHAT THE OIG RECOMMENDED:
                                             We are not making any
We conducted this audit to follow up on      recommendations because
the OIG’s prior report on the Postal         management took corrective actions to
Service’s advertising program. Our audit     address the need for consensus
objectives were to determine whether         documentation by releasing an official
the Postal Service increased                 memorandum and training contracting
competition for advertising contracts and    officials on the technical evaluation
to assess the supplier selection process.    policy requirement.

WHAT THE OIG FOUND:                          Link to review the entire report
The Postal Service increased
competition for advertising contracts by
closing its two largest advertising
contracts and competitively awarding
contracts to four suppliers. Evaluation
teams generally complied with the
June 11, 2014

MEMORANDUM FOR:            SUSAN M. BROWNELL
                           VICE PRESIDENT, SUPPLY MANAGEMENT




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Finance and Supply Management

SUBJECT:                   Audit Report – Advertising and Consulting Supplier Selection
                           Process (Report Number SM-AR-14-006)

This report presents the results of our audit of the U.S. Postal Service's Advertising and
Consulting Supplier Selection Process (14YG001SM000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Keshia L. Trafton, director, Supply
Management and Facilities, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Advertising and Consulting                                                                                         SM-AR-14-006
 Supplier Selection Process



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Consensus Evaluations ................................................................................................... 2

Management’s Comments .............................................................................................. 2

Evaluation of Management’s Comments ......................................................................... 3

Appendix A: Additional Information ................................................................................. 4

   Background ................................................................................................................. 4

   Objectives, Scope, and Methodology .......................................................................... 4

   Prior Audit Coverage ................................................................................................... 5

Appendix B: Monetary Impact ......................................................................................... 6

Appendix C: Management’s Comments .......................................................................... 7
Advertising and Consulting                                                                           SM-AR-14-006
 Supplier Selection Process



Introduction

This report presents the results of our audit of the U.S. Postal Service's Advertising and
Consulting Supplier Selection Process (Project Number 14YG001SM000). Our audit
objectives were to determine whether the Postal Service increased competition for
advertising contracts and to assess the supplier selection process. We conducted this
audit to follow up on the prior U.S. Postal Service Office of Inspector General’s (OIG)
report, titled Advertising Program, 1 and review advertising contracts issued by
contracting officers in the Supply Management Professional and Technical Services
Category Management Center. 2 See Appendix A for additional information about this
audit.

In the previous report, the OIG found the Postal Service did not adequately monitor its
two largest advertising contracts. As a result of that audit, the Postal Service planned to
restructure the contracts to take advantage of competition in the advertising
marketplace. In fiscal years (FYs) 2012 and 2013, the Postal Service awarded about
$252 million for advertising and related consulting services. 3

Supplier selection involves a team evaluating suppliers’ proposals. Team members
individually evaluate proposals and then meet to reach a consensus. The team must
document the rationale for its decisions. 4 Competing suppliers who disagree with the
supplier selection can challenge the contract award. 5

Conclusion

The Postal Service increased competition for advertising contracts by closing its two
largest advertising contracts and competitively awarding contracts to four suppliers.
Evaluation teams generally complied with the established guidelines for the supplier
selection process by documenting narratives to support their decisions, except in the
case of two consulting contract purchases. Specifically, the evaluations for these
purchases did not include narratives to explain the basis of the competing supplier
ratings.

If supplier evaluations are not fully documented and maintained, the Postal Service
cannot ensure the transparency and integrity of the supplier selection process and its
contract awards may be vulnerable to challenges. As a result, we identified two contract
purchases valued at $3.5 million for which evaluations did not contain narratives to

1
  Report Number MS-AR-13-002, dated January 4, 2013.
2
  The Professional and Technical Services Category Management Center facilitates the purchase of service contracts
and consists of four teams: Professional Consulting Services; Technical and Non-Traditional Services; Sustainability
and Environmental Services; and Advertising and Creative Services.
3
  Purchases made by the Postal Service, Supply Management, Commercial Products and Services Portfolio.
4
  Supplying Principles and Practices (SP&P), Section 2-40.3.1, Contract Files for Competitive Contracts, dated
November 29, 2012.
5
  SP&P, Section 7-4, Supplier Disagreement Resolution.
                                                          1
Advertising and Consulting                                                      SM-AR-14-006
 Supplier Selection Process


support team consensus decisions. This does not necessarily indicate that the Postal
Service incurred losses. See Appendix B for additional information about the monetary
impact.

Consensus Evaluations

For two contract purchases valued at $3,493,680, the evaluation team members did not
provide narratives to explain the basis of their scores in the consensus evaluations. The
contracting officer did, however, include final consensus scores for all suppliers in the
contract file. The two suppliers who won these contracts received the highest
consensus scores.

The contracting officer did not require the teams to submit a written narrative to support
their decisions as required by policy. The SP&P states that the evaluation team should
document its conclusions and prepare a narrative at the same time it is scoring the
proposals. The team must provide its rationale for each supplier’s score and arrive at a
consensus decision for each proposal. 6 If supplier evaluations are not fully documented
and maintained, the Postal Service cannot ensure the transparency and integrity of the
supplier selection process and its contract awards may be vulnerable to supplier
challenges.

As a result of our audit, the vice president, Supply Management, issued a memorandum
on May 16, 2014, to the Professional and Technical Services Category Management
Center manager to address this issue. Specifically, the vice president, Supply
Management, reiterated the consensus documentation requirements and instructed
management to follow up with a written plan of action by May 30, 2014, to enforce the
contracting policy. In response, on May 21, 2014, management trained contracting
officials on the technical evaluation policy requirement.

The OIG considers management's corrective actions responsive to address the risks
that contracting officials did not follow policy by including narratives supporting their
scores in the consensus evaluations. Therefore, we are not making any
recommendations.

Management’s Comments

Management agreed with the finding and monetary impact. Management took corrective
action by informing the Professional and Technical Services Category Management
Center manager to reinforce technical proposal evaluation policy with team leaders and
contracting officers. On May 21, 2014, the manager conducted training on the policy.
See Appendix C for management’s comments, in their entirety.




6
    SP&P, Section 2-31.2, Individual Evaluation.


                                                   2
Advertising and Consulting                                               SM-AR-14-006
 Supplier Selection Process



Evaluation of Management’s Comments

Although the report does not contain any recommendations, the OIG considers
management’s comments responsive.




                                         3
Advertising and Consulting                                                   SM-AR-14-006
 Supplier Selection Process



                              Appendix A: Additional Information

Background

In January 2013, the OIG found the Postal Service was not adequately monitoring its
two largest advertising contracts. The chief Marketing and Sales officer stated she was
evaluating the Postal Service's overall advertising program. She also stated that
restructuring contracts would allow the Postal Service to take advantage of available
competition in the advertising marketplace, better align these contracts with current
advertising purchasing practices, and maximize the effectiveness of the Postal Service's
advertising investments.

Supplier selection is a process that involves a team evaluating the proposals suppliers
submit to the Postal Service to compete for contracts. For each solicitation, the
purchasing officer organizes a proposal evaluation team to judge the relative value of
proposals based on certain evaluation factors. Team members independently evaluate
competing suppliers and then convene to discuss their evaluations and rank proposals
according to the value they offer the Postal Service. The proposal evaluation team
documents its conclusions and a narrative is prepared at the time the proposal is
scored. The team must provide its rationale for a particular supplier’s score and must
arrive at a consensus decision for each proposal. The contracting officer oversees the
selection of the supplier and the overall fairness and integrity of the purchase.

In FYs 2012 and 2013, the Postal Service Supply Management Professional and
Technical Services Category Management Center awarded about $252 million for
advertising and consulting contracts. We conducted this audit to follow up on Postal
Service advertising contracts.

Objectives, Scope, and Methodology

Our audit objectives were to determine whether the Postal Service increased
competition for advertising purchases and assess the supplier selection process.

To accomplish our objectives, we:

   Analyzed data from FYs 2011 to 2013 for all advertising purchases, which totaled
    $388,852,649, to determine the fluctuation in the number of advertising services’
    competitive and noncompetitive contracts.

   Reviewed the requirements of the two largest contracts to determine whether the
    Postal Service restructured the requirements and increased competition for
    advertising services.

   Obtained and analyzed contract documentation for active competitive contracts for
    31 advertising and consulting contracts valued at $251,890,868 for FYs 2012 and
    2013.


                                              4
Advertising and Consulting                                                                      SM-AR-14-006
 Supplier Selection Process



      Interviewed purchasing officials and evaluation team members to determine the
       supplier selection process.

      Reviewed contract documentation such as statements of work and technical and
       consensus evaluations to determine whether suppliers were evaluated on the criteria
       outlined in the solicitations.

We conducted this performance audit from October 2013 through June 2014, in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on May 15, 2014, and included their
comments where appropriate.

We assessed the reliability of computer-generated data by comparing the contract
values on the source documentation obtained from the Postal Service's Contract
Authoring Management System 7 to the value of the data pulled from the Postal
Service's Enterprise Data Warehouse. 8 We determined that the data were sufficiently
reliable for the purposes of this report.

Prior Audit Coverage

Prior audit coverage includes an OIG report titled Advertising Program (Report Number
MS-AR-13-002, dated January 4, 2013). The audit found that the Postal Service was
not adequately monitoring its two largest advertising purchases, which threatened the
effectiveness and integrity of its advertising program. The OIG identified nearly
$7 million in unsupported questioned costs due to incorrectly certified and questionable
purchaser support staff labor costs and bonus payments. Management agreed with all
the recommendations and planned to restructure the advertising contracts.




7
    A contract-writing tool that houses clauses and provisions relevant to various contracts.
8
    A single repository for managing all of the Postal Service's data assets.


                                                             5
Advertising and Consulting                                                                           SM-AR-14-006
 Supplier Selection Process



                                     Appendix B: Monetary Impact

                  Finding                      Impact Category                              Amount
                     1                 Unsupported Questioned Cost 9                       $3,493,680

The $3,493,680 represents the total value of two contract purchases that did not have a
written narrative to support the consensus evaluations. This does not necessarily
indicate that the Postal Service incurred losses.




9
 Claimed because personnel did not follow policy or required procedures but it does not necessarily connote any real
damage to Postal Service.


                                                         6
Advertising and Consulting                                        SM-AR-14-006
 Supplier Selection Process


                              Appendix C: Management’s Comments




                                              7
